OIG Investigative Reports, Former New Haven, Connecticut Assistant Principal Indicted for Theft of Federal Funds and Tax Offenses
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
NEWS RELEASE:
Wednesday August 23, 2006
United States Attorney
District of Connecticut
Connecticut Financial Center
157 Church Street
New Haven, Connecticut 06510  CONTACT PERSON:
Tom Carson
Public Information Office
(203) 821-3722
(203) 996-1393 (cell)
Former New Haven ASSISTANT Principal Indicted for Theft of Federal
Funds and Tax Offenses
Kevin J. O'Connor, United States Attorney for the District of Connecticut,
today announced that a federal grand jury sitting in New Haven returned a 17-count
Indictment yesterday, August 22, charging BEN A. HUNTER, age 59 (DOB 5/30/47),
of 276 Crescent Street, New Haven, with theft of federal funds, subscribing
to false tax returns, and aiding in the preparation of false tax returns.
The Indictment alleges that HUNTER, while employed by the New Haven Board of
Education as an assistant principal at Hillhouse High School, was the director
of an after-school and summer program known as the Connecticut Shoot-Out Basketball
Camp. The program's avowed purpose was to provide athletic opportunities for
New Haven’s inner-city youth between the ages of seven and 14. The program was
funded by federal Title 1 funds and was staffed by individuals who were paid
with federal funds by the City of New Haven
The Indictment alleges that HUNTER submitted time sheets for fictitious employees.
When payroll checks were generated for these fictitious employees, they were
provided to HUNTER, who would forge endorsements and cash the checks for his
own benefit. The Indictment further alleges that, in order to avoid detection
of the scheme to embezzle federal funds by fraud, HUNTER did not report income
obtained through the fraudulent scheme on his income tax returns for calendar
years 1998 through 2002. Finally, the Indictment alleges that HUNTER caused
fraudulent income tax returns to be filed for other persons in whose names he
caused fraudulent payroll checks to be issued.
"This individual is alleged to have stolen thousands of dollars from a worthy,
city-sponsored program funded with federal tax dollars, and then committed substantial
tax fraud against the federal government in order to conceal his behavior,"
U.S. Attorney O'Connor stated.
If convicted, HUNTER faces a maximum term of imprisonment of 10 years and a
fine of up to $250,000 on each of the two theft of government funds counts,
and a maximum term of imprisonment of three years and a fine of up to $100,000
on each of the 15 tax counts.
U.S. Attorney O'Connor stressed that an indictment is only a charge and is
not evidence of guilt. The defendant is entitled to a fair trial at which it
is the Government’s burden to prove guilt beyond a reasonable doubt.
U.S. Attorney O'Connor commended the investigation of this matter by the New
Haven Police Department, the Federal Bureau of Investigation, the Internal Revenue
Service - Criminal Investigation, and the Department of Education, Office of
the Inspector General. The case is being prosecuted by James I. Glasser, Counsel
to the U.S. Attorney.
Top
Printable view
Share this page
Last Modified: 08/24/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov